<html>
<title> - [H.A.S.C. No. 111-11]THE VIEWS OF MILITARY ADVOCACY AND BENEFICIARY GROUPS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-11]
 
         THE VIEWS OF MILITARY ADVOCACY AND BENEFICIARY GROUPS

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 25, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
50-055                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                 Debra Wada, Professional Staff Member
                 John Chapla, Professional Staff Member
                     Rosellen Kim, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, February 25, 2009, The Views of Military Advocacy and 
  Beneficiary Groups.............................................     1

Appendix:

Wednesday, February 25, 2009.....................................    31
                              ----------                              

                      WEDNESDAY, FEBRUARY 25, 2009
         THE VIEWS OF MILITARY ADVOCACY AND BENEFICIARY GROUPS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Becker, F. Jed, Chairman, Armed Forces Marketing Council.........    11
Brackett, Perri, Chairwoman, American Logistics Association......    13
Cline, Master Sgt. Michael P., USA (Ret.), Executive Director, 
  Enlisted Association of the National Guard of the United States     5
Duffy, Col. Peter J., USA (Ret.), Deputy Director, Legislation, 
  National Guard Association of the United States................     4
McCloud, Margaret, Member, Gold Star Wives of America............     9
Moakler, Kathleen B., Director, Government Relations, National 
  Military Family Association....................................     7
Strobridge, Col. Steven P., USAF (Ret.), Director, Government 
  Relations, Military Officers Association of America............     8

                                APPENDIX

Prepared Statements:

    Becker, F. Jed...............................................   140
    Brackett, Perri..............................................   160
    Cline, Master Sgt. Michael P., joint with Col. Steven P. 
      Strobridge and Kathleen B. Moakler.........................    55
    Davis, Hon. Susan A..........................................    35
    Duffy, Col. Peter J..........................................    39
    Moakler, Kathleen B..........................................   108
    Ortiz, Hon. Solomon P., a Representative from Texas, 
      Chairman, Readiness Subcommittee...........................    38
    Wilson, Hon. Joe.............................................    37

Documents Submitted for the Record:

    Statement of the Fleet Reserve Association on Military 
      Personnel Policy, Benefits, and Compensation, February 25, 
      2009.......................................................   187
    Statement of Gold Star Wives of America, Inc., February 25, 
      2009.......................................................   238
    Statement of Michael H. Wysong, Director, National Security 
      and Foreign Affairs, Veterans of Foreign Wars of the United 
      States, February 25, 2009..................................   207
    Statement of the Reserve Officers Association of the United 
      States, February 26, 2009..................................   197
    Testimony of Todd Bowers, Director of Government Affairs, 
      Iraq and Afghanistan Veterans of America, February 25, 2009   217

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
         THE VIEWS OF MILITARY ADVOCACY AND BENEFICIARY GROUPS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                      Washington, DC, Wednesday, February 25, 2009.
    The subcommittee met, pursuant to call, at 3:04 p.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon everybody.
    The hearing will come to order. I want to thank our 
witnesses today for coming. We will be focusing on the views of 
military advocacy and beneficiary groups.
    For the past several years, as many of you know, the 
subcommittee has found it beneficial to hear from a handful of 
beneficiary and advocacy organizations at the start of the 
legislative season on a wide range of policies that impact 
service members, their families, and retirees.
    And this approach has allowed the subcommittee to have a 
better understanding of the priorities of these organizations 
and where they stand so the members of the subcommittee gain a 
better appreciation of the many competing requirements that 
come before us.
    During the last Congress, the subcommittee was able to 
visit several of our members' districts, and I look forward to 
continuing this new tradition and getting out to other 
districts in the coming year.
    These trips have also afforded us a firsthand view of the 
issues that affect our men and women in uniform. The current 
economic climate is a challenge. It is a challenge to all 
Americans. And our service members and their families are not 
immune to its effects. As such, we expect that the coming 
Department of Defense (DOD) budget will be streamlined, and 
finding additional funds to address the multitude of important 
personnel programs, particularly the increases in health care 
costs, will be even more challenging this year.
    More so than ever, we know that we are going to be forced 
to make difficult decisions, and it is important for the 
subcommittee to understand the priorities for service members, 
retirees, and their families when we make these decisions.
    I want to welcome our witnesses today: Peter J. Duffy, 
Colonel, United States Army, retired, deputy legislative 
director for the National Guard Association of the United 
States.
    Nice to have you with us, all of you.
    Michael P. Cline, Master Sergeant, United States Army, 
retired, executive director, Enlisted Association of the 
National Guard of the United States; Ms. Kathleen B. Moakler, 
director, governmental relations for the National Military 
Family Association; Steve Strobridge, Colonel, United States 
Air Force, retired, director of government relations, Military 
Officers Association of America; Mr. F. Jed Becker, chairman of 
the Armed Forces Marketing Council; Ms. Perri Brackett, 
chairwoman, American Logistics Association; and Margaret 
McCloud, member, Gold Star Wives, also here testifying today, 
and we are delighted to have all of you.
    Let me also mention, Master Sergeant Cline, Ms. Moakler, 
and Colonel Strobridge represent their individual association, 
but they are also representing the position of the Military 
Coalition (TMC) here today. The coalition is comprised of over 
30 uniformed services and veterans service organization (VSO). 
We could not have all interested individual organizations 
present their oral testimony, so we have asked these 
individuals to represent the coalition members here today. And 
we appreciate the fact that many of you have put your 
statements into the record, and we will certainly include 
those.
    Ladies and gentlemen, welcome. I would ask that you testify 
in the order that I stated.
    And Mr. Wilson, I wonder if you have any comments that you 
would like to add as well.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 35.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Madam Chairwoman Davis, for holding 
this hearing today.
    And thank you each, as a member of today's panel, for being 
here today. I truly appreciate your willingness to share your 
views on important issues spanning the full breadth of the 
subcommittee's jurisdiction. This testimony will surely help to 
shape our legislative and funding priorities as we strive to 
improve the military personnel, health care, and morale, 
welfare and recreation (MWR) systems of the Department of 
Defense.
    I am especially grateful that we will hear today from Ms. 
Margaret McCloud, a Gold Star Wife whose husband, Lieutenant 
Colonel Trane McCloud, was killed in action in Iraq. Trane was 
an active duty Marine and served in our office as the Defense 
Legislative Fellow in 2003. Trane has been such a patriot. He 
was devoted to his country. He loved his wife and three 
children. I am so grateful to have Maggie here today.
    And thank you so much and God bless you.
    Also I would like to thank Chairman Davis for agreeing to 
my request that the panel include witnesses to address National 
Guard and Reserve issues.
    Madam Chair, based on my review of the testimony submitted 
to us, the recommendations made by the various groups fall into 
two broad categories: one, those that are strictly policy 
issues that require little or no additional funding; and two, 
those legislative changes that would require additional 
discretionary or mandatory spending.
    While fiscally more difficult, many of the proposals that 
will make an immediate and positive impact on our service 
members and their families fall into the latter category. Some 
examples include an annual pay increase of one-half of one 
percent above the employment cost index, ECI; improving Reserve 
component compensation; eliminating the concurrent receipt and 
the Survivor Benefit Plan (SBP) and Dependent Indemnity 
Compensation (DIC) offsets; and prohibiting substantial 
increases in health care cost sharing.
    It has been said that a time was coming when we might not 
be able to come up with the offsets for these proposals. 
However, in today's environment, when Congress and the 
President have committed to spending trillions of dollars, that 
is thousands of billions, to rescue the economy, it is my view 
that Congress can find the additional funding required to 
protect the men, the women, and their families who make 
incredible daily sacrifices in service to our Nation.
    I would urge that the subcommittee provide recommendations 
for additional mandatory spending authority to Chairman Skelton 
and Ranking Member McHugh for inclusion in the House Armed 
Services Committee (HASC) views and estimates letter.
    Madam Chair, I would welcome the opportunity to work with 
you in that effort. Again, I thank you for holding this 
hearing, and I look forward to the testimony of our witnesses.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 37.]
    Mrs. Davis. Thank you very much, Mr. Wilson.
    And I know that this is a difficult thing to do, but you 
have been asked to try and limit your comments to three 
minutes. That will give us more time to be sure that we have a 
chance to engage in a real discussion here, and we would like 
very much to do that.
    So if you could summarize your remarks and provide us with 
your top three priorities, that is helpful, too. If you don't 
have it together in that way we will come back and ask you 
anyway. So however you choose to use those three minutes, we 
hope that we will have a chance to understand those very 
clearly before we leave here today.
    After reviewing all the written testimony, the totality of 
the program enhancements, the expansions and improvements that 
are being sought, the total as you can well imagine is in the 
billions of dollars both in mandatory and discretionary 
funding, and the reality, as you well know, is that we can't do 
everything that we are seeking to achieve, certainly not in 
years past and not here. And we have tried to do that but we 
know that that is very difficult. So we will continue to make 
the kinds of improvements that you are here to talk about in 
incremental steps. To the extent we understand those better is 
really what we are here to do today.
    We certainly can't accommodate all the organizations who 
would like to speak and to present all of their oral testimony, 
but without objection, I would like to include in the record 
and ask unanimous consent that the testimony from the Fleet 
Reserve Association; the Reserve Officers Association; the 
Veterans of Foreign Wars of the United States; and the Iraq and 
Afghanistan Veterans of America as well as the statement from 
Mr. Solomon Ortiz, the Chairman of the Readiness Subcommittee, 
be included for the record.
    [The information referred to can be found in the Appendix 
on page 38, and beginning on page 187.]
    Mrs. Davis. And with that, Colonel Duffy, could you please 
begin.

STATEMENT OF COL. PETER J. DUFFY, USA (RET.), DEPUTY DIRECTOR, 
  LEGISLATION, NATIONAL GUARD ASSOCIATION OF THE UNITED STATES

    Colonel Duffy. Thank you, Madam Chair.
    Thank you for this opportunity to present testimony. I will 
summarize.
    My three points will be related to medical readiness: one, 
in the context of premobilization medical readiness; the 
second, post-deployment medical readiness; and the third, 
mental health care as a readiness item both pre- and post-
deployment.
    A few very brief words about the National Guard, with which 
I know you all are familiar. We are a unique component among 
the military. We are citizen soldiers. Once released from 
active duty, if we remain as members of the Selected Reserve, 
we go under Title 32 status under the command and control of 
the Governor where members of the National Guard will fight 
fires in California, ice storms in Arkansas, hurricanes in 
South Carolina and North Carolina, often with very little break 
time before returning to active duty. The National Guard is a 
community-based organization. I cannot amplify that or 
underscore that enough.
    Medical readiness needs: Currently, when the alert order 
comes out to activate a unit, our members are usually screened 
with the screening taking place ideally within about one year 
from the time of deployment. If there are medical and dental 
deficiencies found in that screening, there is no mandatory 
program to fix those. We want to mandate the Department of 
Defense not just to screen our members for medical and dental 
readiness but to fix any medical or dental deficiencies. And 
this should be done on an ongoing basis.
    Let me explain the concept of cross-leveling, which may 
sound a little bit unusual. If a unit of 70 persons is 
activated, alerted, and let's say they are alerted 1 year prior 
to deployment, as they approach deployment, if 5 or 10 members 
are not fit for deployment, be it medical or legal reasons, 
other members in the state not part of that unit will be cross-
leveled to be deployed with them. Sometimes the notice for 
cross-leveling can be as short as two or three weeks. Certainly 
those members do not have any adequate notice of the 
possibility of deployment to have attended to medical and 
dental needs.
    If we have full-time medical readiness, this would not be 
an issue. All members in the state National Guard would be 
medically and dentally ready if we had annual screenings and 
their deficiencies were repaired. Full-time readiness: If the 
Department of Defense is going to use the National Guard as an 
operational force, it should take care of them medically as an 
operational force, not in the staccato method that has been 
followed since this war began.
    Right now our members receive active duty equivalent 
medical care 90 days prior to being activated. We want this 
extended to the full alert period.
    Post deployment: The post-deployment health assessment 
(PDHA), as you may know, is administrated at the demobilization 
site. It is a self-assessment completed by the soldier or by 
the airman. The demobilization site is often far removed from 
the home station. For example, the Maryland National Guard had 
a unit that was demobilized in the State of Washington before 
returning to Maryland. When the member fills out the post-
deployment health assessment it's done subject to the 
instruction that if a major medical issue is cited, that member 
could be retained on active duty at the demobilization site. 
For a member who wants to go home, that member will tend to 
game the system and under-report or not report injuries. What 
this delays, of course, is diagnosis and treatment and also 
prejudices that member if he later files a service claim for a 
service-connected injury that was not reported.
    It is essential that the post-deployment health assessment 
be completed in a more soldier-friendly environment in the home 
station under the auspices of a treating health care 
professional. A treating health care professional can spot 
things that a self-assessing member cannot. And if geographical 
barriers are the inhibitor to full reporting on the PDHA, those 
would be removed if the member would be allowed to complete 
this at a home service station.
    It is not going to pick up everything. Some service-
connected injuries will not be presented until months, maybe 
years, after the member returns, but it will produce a better 
yield.
    [The prepared statement of Colonel Duffy can be found in 
the Appendix on page 39.]
    Mrs. Davis. I know that your time is up. If we go and have 
an opportunity to hear from everybody, we will certainly come 
back on some other issue as well.
    Colonel Duffy. Thank you.
    Mrs. Davis. Master Sergeant Cline.

    STATEMENT OF MASTER SGT. MICHAEL P. CLINE, USA (RET.), 
EXECUTIVE DIRECTOR, ENLISTED ASSOCIATION OF THE NATIONAL GUARD 
                      OF THE UNITED STATES

    Sergeant Cline. Madam Chair, Representative Wilson and 
members of the subcommittee, my testimony will focus on early 
retirement, TRICARE, Montgomery GI (MGIB) education benefits 
for Guard and Reserve.
    TMC named its top goal for the Guard and Reserve in 2009 as 
retroactivity of the early retirement eligibility. We suggest 
that the 90-day rule be altered to reflect retirement year and 
not fiscal year accounting.
    The number of multiple Guard and Reserve tours since 9/11 
has jumped to 194,466. The total number of Guard and Reserve 
members that have been mobilized since 9/11 has now risen to 
691,086. Most of these tours will not count toward a reduced 
retirement age for Guard and Reserve members. The TMC believes, 
as the Nation is committed to increased utilization of Reserve 
components and to maintain and retain a viable operational 
Reserve force, we must move forward to provide a reduced 
retirement age entitlement for all Reserve component members. 
That is an age-service formula or outright retirement age at 
age 55 to include provision for gray area retirees to include 
TRICARE access.
    Select Montgomery GI benefits: As you know the Webb GI bill 
did not include benefits for the Selected Reserve members who 
were joining. We ask that you restore basic Reserve MGIB 
benefits for initially joining the Selected Reserve to the 
historic benchmark of 47 to 50 percent of the active duty rate. 
We ask that you ensure all Reserve members utilized in post-9/
11 in support of contingency operations or downsizing or force 
structure reductions in response to Base Realignment and 
Closure (BRAC) are afforded the opportunity to participate in 
the GI bill improvements.
    Integrate Reserve and active duty MGIB laws into Title 38. 
Enact academic protections for mobilized Guard and Reserve 
students.
    The TMC is pleased with recent improvements in health care 
access for Guard and Reserve families, including implementation 
of TRICARE Reserve Select (TRS). These improvements point to 
congressional recognition that Guard and Reserve health care 
access must be commensurate with their increased 
responsibilities. We seek permanent legislation to allow gray 
area Reservists to purchase TRS health care coverage.
    Establish a moratorium on TRS premium increases and direct 
DOD to make a determined effort for the most efficient uses of 
resources allocated. Make DOD fiscally responsible for medical 
and dental care for Reservists, beginning with the issuance of 
an alert order and 180 days post-mobilization.
    Ensure Guard and Reserve members have adequate access and 
treatment in the DOD and Veterans Affairs (VA) health care 
systems for post-traumatic stress disorder and traumatic brain 
injury following separation from active duty service and 
theater of operation.
    Allow the option of an equivalent offset to civilian plan 
premiums during activation similar to provisions of up to 24 
months of Federal Employee Health Benefits (FEHB) premium 
coverage for mobilized Federal workers.
    Allow eligibility and continued health care benefits for 
Select Reservists who are voluntarily separating and subject to 
disenrollment in TRS.
    Madam Chair, thank you for the opportunity to present the 
views of the TMC Guard and Reserve committee.
    [The joint prepared statement of Sergeant Cline, Colonel 
Strobridge, and Ms. Moakler can be found in the Appendix on 
page 55.]
    Mrs. Davis. Thank you very much.
    And we have had a call for a vote. We will try to hear 
maybe one or two more witnesses, and then we will come back. It 
is just one vote, so hopefully it won't be too long.
    Ms. Moakler.

    STATEMENT OF KATHLEEN B. MOAKLER, DIRECTOR, GOVERNMENT 
        RELATIONS, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Moakler. Madam Chairperson, Representative Wilson, and 
other members of the subcommittee, I will address issues 
affecting our service members, their families, and their 
survivors.
    Providing major increases in military end-strength for the 
Army and Marine Corps must continue as a top priority in order 
to have any significant prospect of easing rotation burdens. 
The coalition is disturbed by calls to reduce planned force 
growth as a means of funding weapons requirements. We also 
resist budget-driven rather than requirements-driven manpower 
reductions for the Air Force and Navy.
    We thank the committee for its sustained commitment to 
restoring full military pay comparability. We ask that you 
sustain military raises of at least .5 percent above the ECI 
until the current 2.9 percent shortfall is eliminated.
    The coalition supports revised housing standards that are 
more realistic and appropriate for each pay grade. We urge the 
subcommittee to continue its efforts to extend the single-
family detached house standard to those in grade E-8 and then 
to grade E-7 and below over several years as resources allow.
    Recently, Admiral Mike Mullen said, ``The way the families 
are handling this thing is, they are just toughing it out until 
they get the relief. There is a concern about how long they can 
tough it out. We are going to have to continue to focus on 
that.''
    The TMC agrees. Focus should be on policies and programs 
that provide a firm foundation for families buffeted by the 
uncertainties of deployment and transformation. We understand 
that these are leaner times. But our families rely on these 
programs. We want sustained funding for those programs that 
work for families that are both high-tech and high-touch, 
reaching families of all services and components where they 
live and when they need it most.
    Families need access to behavioral health care. Counseling 
programs have proven beneficial. But when family members find 
they need more in-depth care, the wait for an appointment, or 
distance to a mental health provider can be a huge barrier when 
they need help the most. Improving access to mental health care 
for our military families needs to be a priority.
    Innovative strategies are required to address the non-
availability of after-hours child care and respite care. The 
partnership between the services and National Association of 
Child Care Resource and Referral Agencies (NACCRRA) that 
provides subsidized child care to families who cannot access 
installation-based Child Development Centers (CDCs), including 
National Guard and Reserve families, needs to be expanded. 
These programs need to be sustained as part of the regular 
budget process and not just as part of supplemental funding.
    The elimination of the DIC offset to SBP remains a high 
priority for the TMC. We also support payment of SBP annuities 
for disabled survivors into a special needs trust so that they 
can continue to receive essential support services. We ask that 
you allow children of members who die on active duty to retain 
coverage under the active duty dependent dental plan until they 
age out.
    TMC urges the subcommittee to authorize survivors of 
retired members to retain the final month's retired pay for the 
month in which the retiree dies. This brings it in line with 
the VA disability payment and relieves economic complications 
in their time of grief.
    Thank you and I await your questions.
    [The prepared statement of Ms. Moakler can be found in the 
Appendix on page 108.]
    Mrs. Davis. Thank you very much.
    Colonel Strobridge, I think we have time. And then we will 
go vote and come right back.

STATEMENT OF COL. STEVEN P. STROBRIDGE, USAF (RET.), DIRECTOR, 
 GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA

    Colonel Strobridge. Madam Chair, Representative Wilson, and 
members of the subcommittee, my testimony will focus on wounded 
warriors' health care and retirement issues.
    On wounded warriors, we need permanent authority for the 
Senior Oversight Committee (SOC) that will expire at the end of 
this year. We are also concerned that the transition from 
active duty to retiree TRICARE or to the VA coverage catches 
many wounded warriors and their families unaware. They need the 
same protections that we provide when someone dies on active 
duty: three years of continued active duty level coverage to 
assure a smooth transition.
    We urge a consistent package of training and compensation 
for wounded warriors' full time caregivers. The services have 
separate programs in that area, and the VA offers very little, 
and the caregivers lose all support when the member is 
disability retired. We owe them a fairer deal.
    Regarding psychological health and Traumatic Brain Injury 
(TBI), DOD and VA are moving out on those issues, but most of 
those efforts are going to take time. As Kathy said, we have 
overwhelming numbers who need help now, but many have to wait 
months for appointments, and that is, frankly, not good enough. 
We need to do a better job there.
    On TRICARE fees, we hope the new Administration won't 
continue the past budget efforts to raise fees and drive 
retirees away from using their earned coverage. TRICARE costs 
are inflated by unique military requirements and 
inefficiencies, and DOD has lots of options to cut costs 
without passing beneficiaries the bill.
    We ask you to put language in this year's Defense 
Authorization Act expressing the sense of Congress that 
military people pay huge upfront premiums through decades of 
service and sacrifice over and above of their cash fees. We 
don't think that gets enough acknowledgement. DOD surveys show 
that military beneficiaries are less satisfied with their care 
than most civilians are. We think the Pentagon needs to focus 
more on fixing TRICARE and less on trying to charge more for 
it.
    On concurrent receipt, we believe, as you know, that 
military retired pay is earned by service and shouldn't be 
reduced for a service-caused disability. We hope that you will 
be able to fix a glitch in the combat-related special 
compensation law that causes some to lose the pay that Congress 
meant for them.
    We are also very concerned about the REDUX retirement 
system and the so-called $30,000 career status bonus that 
entices thousands of unwary members to forfeit the hundreds of 
thousands of dollars in future retired pay. In fact, the bonus 
is a lifetime loan against future retired pay with a usurious 
24 percent Annual Percentage Rate (APR) for the typical 
enlisted member and a 35 percent APR for the typical officer. 
We would be pleased to explore options with the subcommittee 
staff to better protect members against mortgaging their 
financial futures.
    Finally, we hope the subcommittee will not support the 10th 
Quadrennial Review of Military Compensation's military 
retirement proposal which would defer receipt of full military 
retired pay until age 58 or 60 and authorize vesting at 10 
years. We believe that a civilian-style plan is inappropriate 
for military service conditions. It would take money from 
career people to pay those who leave early. We think it would 
undermine long-term retention and readiness and prove 
disastrous in a wartime environment like today's.
    Madam Chair, that concludes my remarks.
    [The joint prepared statement of Colonel Strobridge, 
Sergeant Cline, and Ms. Moakler can be found in the Appendix on 
page 55.]
    Mrs. Davis. I understand that we only have one vote so we 
should be able to come back--three votes. But it is the last 
votes for the day. So that is a good thing. We will be back. 
Thank you.
    Actually, it is three votes. It could be, if you need to go 
get something to eat, at least a half-hour, 45 minutes. I hate 
for you all to have to wait through that, but there is no other 
way. Thank you very much for your patience.
    [Recess.]
    Mrs. Davis. Thank you for your patience, everybody. We are 
now going to resume.
    Ms. McCloud, we look forward to your testimony. Thank you.

   STATEMENT OF MARGARET MCCLOUD, MEMBER, GOLD STAR WIVES OF 
                            AMERICA

    Ms. McCloud. My name is Maggie McCloud. The last time I was 
in this room was last year when the Marines posthumously 
presented me with my husband's Bronze Star Award. I am the 
proud widow of Marine Lieutenant Colonel Joseph Trane McCloud. 
Trane died on December 4, 2006, when his helicopter crashed at 
Haditha Dam in the al-Anbar province of Iraq. When he died, our 
three children were two, five and seven.
    Thank you so much for the opportunity to be here today.
    Thank you, Congressman Wilson, for the friendship and 
support you have shown my family since Trane's death. I will 
always be grateful.
    Chairwoman Davis, I have met with you before, and I 
appreciate all that you have done and continue to do for our 
military families and survivors.
    I have also met with Congressman Jones, and he has been a 
loyal friend.
    The reason I am here today is to talk about the Military 
Surviving Spouses Equity Act, H.R. 775, recently introduced by 
Congressmen Solomon Ortiz and Henry Brown, which eliminates the 
unjust offset of the Survivor Benefit Plan by Dependent 
Indemnity Compensation. This legislation currently has 136 
cosponsors. Eleven of the sixteen members of this subcommittee 
have cosponsored. Thank you.
    By law, SBP is offset dollar for dollar by DIC. DIC is an 
indemnity payment paid by the Department of Veterans Affairs to 
the surviving spouse for a service-related death. SBP is an 
annuity purchased by the retired military service member and 
provided to the spouse of active-duty deaths.
    Approximately seven percent of the 54,000 SBP/DIC surviving 
spouses became eligible through active-duty death. The 
remaining 93 percent are survivors of disabled retirees who 
paid premiums to ensure that their families receive a continued 
portion of the earned lifetime retired pay upon their death. 
The retiree paid for it, and now their spouse is being denied 
it.
    DIC is a reparation; SBP is a retirement. They are distinct 
and separate things. There is no reason that receiving one 
should offset the other. But that is exactly what happens.
    Shortly after Trane died, I sat the kids down and I made 
them a promise. I told them that our lives without daddy would 
certainly be different. How could it not be? He was the most 
amazing husband, the most amazing father, and he is now gone 
from our lives. But I promised them that although our lives 
would be different, they would still be good--different, but 
good.
    Trane did his job willingly. He served his Nation, he did 
it well, and he gave his life doing it. He did his job, and I 
will do mine: live a good life and raise our children well.
    Shortly after burying my husband at Arlington, I was faced 
with a decision, the same decision that all surviving spouses 
with young children have to make: whether to accept the child 
option and receive the full SBP payment without offset of DIC 
only until the youngest child reaches the age of majority, or 
receive a decreased SBP payment to me for life.
    Military widows of nonservice-related deaths are not forced 
to make this same choice. They receive the full SBP and any 
other survivor benefits their husband may have earned post-
military retirement.
    My children have already suffered an unimaginable loss, and 
I did not want to compound that loss further by greater 
financial hardship during their youth. So I, like most other 
widows with young children, took the child option. When I made 
that decision, I didn't fully understand the short- and long-
term consequences. I will never regret trying to secure my 
children's financial future, but, in doing so, I sacrificed 
mine, and that is an injustice.
    No amount of money will make up for the loss of Trane or 
any of our service men or women. All of us would give anything 
for them to come home from that last deployment. But these men 
and women went willingly to serve their country. They knew the 
risk, and they took it. They took it because they know the job 
at hand is of paramount importance to our country and to 
generations of future Americans to keep us safe and secure. 
They took it for us, and they asked very little of us.
    I, like all of you, am grateful that there continue to be 
young men and women who rise to the call of duty to preserve 
our call of freedom. We, as a country, need to honor our 
obligations to them and their surviving spouses. That means 
paying the retirement benefit that is rightfully theirs, either 
because they paid premiums for it after retiring from service 
or they paid for it with their lives.
    The dead and the disabled are a consequence of this war. 
Providing for the well-being of the surviving families of these 
American heroes is a cost of war. If we can find the money to 
fund this war, if we can find the money to continue funding 
supplementals for this war, we must find the money to fulfill 
our obligations to our military families whose service member 
paid the ultimate price for this country.
    Respectfully, and in conclusion, this issue has been before 
Congress for years. Congress has eliminated other offsets to 
retired pay and survivor benefits. Why does this offset remain?
    If our voice isn't loud, it is only because we have been 
silenced by our grief. So let me say in the memory of those 
that have fallen and in the name of the families left behind, 
please right this wrong. Find the funding to eliminate this 
egregious offset and restore the rightful benefit of retired 
pay to the surviving spouses of the men and women who have died 
in service to our country.
    They gave their last full measure. The least Congress can 
do is give them what they have earned. Give them the peace of 
knowing that their loved ones are cared for. Please pass H.R. 
775.
    Thank you so much for the opportunity to be here today.
    Mrs. Davis. Thank you for your testimony. And I know I 
speak for all of my colleagues when we express our condolences 
to you, your family, and to everybody who is here today as 
well. I know we have a lot of Gold Star Wives in attendance, 
and we appreciate the fact that you have taken your grief and 
advocated for other military families.
    Ms. McCloud. Thank you.
    Mrs. Davis. Mr. Becker.

 STATEMENT OF F. JED BECKER, CHAIRMAN, ARMED FORCES MARKETING 
                            COUNCIL

    Mr. Becker. Thank you. Good afternoon, Madam Chairwoman and 
distinguished members of the Subcommittee on Military 
Personnel. My name is Jed Becker, and I am chairman of the 
Armed Forces Marketing Council. Thank you for inviting me here 
today to offer comments regarding the military resale services 
and the vital role they serve in supporting the quality of life 
of our service members and their families.
    Madam Chairwoman, the Council strives to do its part to 
assure the continuation of the military resale system and the 
value it provides to our service members and their families. We 
hope the information and perspectives presented here will be 
useful in your review of military resale activities.
    Given the current economic environment and the challenges 
it presents, we believe it more important than ever that your 
oversight fully recognizes the exceptional value of the resale 
benefit for our military families.
    American taxpayers and their elected representatives can 
share pride in the fact that dollars appropriated to support 
this benefit produce a savings and a value that far outweigh 
the cost. In 2008, the Defense Commissary Agency (DeCA) 
produced savings for military families of $2.5 billion; this at 
a cost of $1.3 billion. Stated another way, every dollar 
appropriated for the commissary provides nearly $2 in benefits 
for military families. That is an extraordinary return on 
investment that cannot readily be found in the Federal 
Government.
    The high-value proposition of the benefit is true for the 
exchange systems as well, which provide an average savings of 
20 to 25 percent.
    In the interest of time, I would like to make note of a 
couple of items that are a bit out of the mainstream but 
threatening to resale benefit as we look forward. We seek your 
support of H.R. 257, calling for the repeal of a three percent 
withholding on payments made to vendors by government entities.
    In 2005, Congress passed and President Bush signed into law 
H.R. 4297, the Tax Reconciliation Act of 2005. This legislation 
included a provision, section 511, which mandates that federal, 
state, and local governments withhold three percent from their 
payments to their goods and service suppliers. It is our desire 
that section 511 be repealed, which is the intent of H.R. 275, 
a bill sponsored by Representative Kendrick Meeks.
    Although this legislation does not fall under the 
jurisdiction of this subcommittee, the implementation of this 
section 511 would have a significant destructive effect on the 
military benefit.
    Another item that I would like to make note of is the price 
parity on tobacco products sold in commissaries and exchanges. 
It has come to the Council's attention that there is a move to 
further raise the price of tobacco products sold in the 
military resale system by five percent, to match the prices on 
those items in the civilian marketplace, a policy being termed 
``price parity.''
    While we are sensitive toward the intentions behind this 
initiative, we are very concerned about establishing 
noncompetitive pricing structures for selected products sold in 
the resale system. It is our belief that the pricing structure 
should remain consistent for all products sold in the resale 
system to maintain the integrity of the benefit. The imposition 
of noncommercial pricing programs is nothing less than a tax on 
these products, which will diminish the value of the resale 
benefit.
    In conclusion, I would like to thank you again, Madam 
Chairwoman and the members of the Subcommittee on Military 
Personnel, for the opportunity to appear before you here today 
and your attention and consideration of the Armed Forces 
Marketing Council's opinions. We appreciate your interest in 
assuring the best for our troops. I stand ready to receive your 
questions.
    And can't help but to make note that there are others at 
the table who are facing challenges that deserve a great deal 
of your time. In the case of the areas that we are focused on, 
you have achieved a great deal. Our pursuit is having you 
maintain those great successes.
    Thank you very much.
    [The prepared statement of Mr. Becker can be found in the 
Appendix on page 140.]
    Mrs. Davis. Thank you.
    Ms. Brackett.

  STATEMENT OF PERRI BRACKETT, CHAIRWOMAN, AMERICAN LOGISTICS 
                          ASSOCIATION

    Ms. Brackett. Madam Chair and distinguished members of the 
subcommittee, it is an honor to be here today as chair of the 
American Logistics Association (ALA). These are extraordinary 
times for our Nation's economy, military, and our veterans. The 
challenges are unprecedented, and it is important that our 
military remain strong and viable.
    ALA member organizations are a strong force in our national 
economy supporting the military. Collectively, our member 
companies contribute nearly $1.2 trillion to the economy and 
generate millions of jobs for Americans. The contribution is 
large overseas, where $4 billion in U.S. products are sold to 
our patrons, funds that would otherwise flow to foreign 
economies.
    The MWR and resale system generates over $18 billion in 
sales and $500 million in earnings that directly contribute to 
the quality-of-life program. MWR provides 120,000 jobs. A large 
percentage of these jobs are held by military family members. 
Goods and services purchased by the resale system generate 
thousands of jobs in communities adjacent to military bases, 
with a large percentage of these businesses being smaller and 
independently owned.
    It is a formula that works, and the House Armed Services 
Committee's strong perennial support has laid the groundwork 
for the system to prosper and rise to meet the challenges in 
these tough times. Your investment is paying off each and every 
day in savings and jobs.
    We urge you to continue your support for funding of 
commissaries, shipment of American products to overseas bases, 
and full support for all authorized categories of morale, 
welfare, and recreation programs.
    Continue your support and authorization for construction 
funding of bases that are expanding as a result of global 
restationing and BRAC.
    Ensure that industry representatives and authorized patrons 
have unimpeded and secure access to military installations.
    Extend commissary and exchange benefits to 30 percent 
disabled veterans. Extend commissary and exchange benefits to 
all military, particularly those who are involved in the global 
war on terror, for three years following their service to allow 
them to succeed in tough times.
    Correct a longstanding injustice by relieving non-
appropriated funds of the burden to pay for cost-of-living 
allowances for U.S. citizens choosing to live abroad. Congress 
needs to allow the services to use prior-year funds to pay this 
cost.
    Repeal the provisions of the Tax Increase and Prevention 
Reconciliation Act of 2005, requiring Federal Government 
entities to withhold three percent of payments due to vendors 
providing goods and services to the Federal Government.
    In closing, we are proud to be an important part of the 
quality of life equation. You can be proud of the system that 
you nurture and protect. The system could not prosper, 
contribute to the economy, take care of our military, and 
employ so many people without your support. We are grateful for 
your leadership.
    Thank you.
    [The prepared statement of Ms. Brackett can be found in the 
Appendix on page 160.]
    Mrs. Davis. Thank you very much.
    We really appreciate you all being here. And we are going 
to take some time now to have perhaps a little bit more of a 
conversation.
    One of the things we asked you--and I recognize that you 
all, in one way or another, really expressed your highest 
priorities. But for the sake of trying to prioritize within 
that, I wonder if you will let us know--and we will go down--if 
you could give us your top three priorities, recognizing that, 
you know, we all have a list and they are all issues and 
benefits that we believe are important. But it is not likely 
that we are able to address all of them. And then perhaps from 
that group we can make certain that we absolutely do everything 
within our power to make certain that we are addressing each 
one of those in some way.
    So, Colonel Duffy, again, I know that you expressed this, 
but can you tell us top three.
    Colonel Duffy. Sure. Yeah, I will do this in more bulleted 
form, too, and skip my prose.
    Mrs. Davis. Okay, that is great. I know you are all 
familiar with that game sometimes people play, where they put 
all the lists on the wall and then people go back with their 
dots and they put their dots up there. So, you know, where 
would you put your dot? That is what we are trying to get at.
    Colonel Duffy. All right.
    Number one, provide all members of the National Guard and 
Reserves with annual medical and dental readiness screenings at 
no cost, with the Department of Defense mandated to provide any 
treatment necessary to correct those deficiencies discovered in 
the screenings. That is a readiness item.
    Number two, mandate medical and behavioral screening of all 
National Guard members returning from deployment by health care 
professionals at the home station before releasing the members 
from active duty.
    The reasons for these bullets are in my writing. I am not 
going to repeat those at this time, following your instruction.
    Three, authorize and appropriate programs that will require 
the Department of Defense to coordinate with the National Guard 
Director of Psychological Health to provide treatment for 
National Guard members and their families post-deployment with 
qualified, community-based health care providers.
    Those are my three. Thank you.
    Mrs. Davis. Thank you very much.
    And one of the things that I observe is that you are really 
focusing largely not just on mental health care but physical 
care, preparation and exit and transition, because that is what 
is critical in that kind of support service.
    And so I think, as we go through, perhaps the rest of you, 
as well, might want to say whether those are things that your 
organizations also would be very interested in as well, or if 
they are totally different. And, in some cases, I understand, 
just by the nature of the organization, that they would be 
somewhat different.
    But we hear that a lot. We think that there have been some 
improvements in those areas, and yet it is clear that we are 
not where we need to be yet.
    Colonel Duffy. Yes, ma'am.
    Mrs. Davis. Master Sergeant Cline.
    Sergeant Cline. Retroactivity to restore early retirement 
to Guard and Reserve people back to 9/11.
    Restore Chapter 1606 Montgomery GI Bill benefits to its 
historic rate of 47 to 50 percent of the active-duty rate.
    And provide gray-area retirees the opportunity to buy into 
TRICARE Reserve Select at the full-cost premium.
    Mrs. Davis. Thank you.
    Ms. Moakler.
    Ms. Moakler. We do support the issues that our colleagues 
have brought up here.
    We look for sustained support for family readiness programs 
for the long term. And that covers the waterfront in so many 
areas.
    We also look for better access to behavioral health care 
and counseling for families of all components; and responsive 
child care programs to support geographically dispersed, 
deployed families; and respite care for the families of the 
wounded and survivors.
    Some of these issues are beginning to be addressed, and we 
applaud that. But we want to make sure that these respite 
services will be available for the families of the wounded, 
families who have a deployed service member, and also surviving 
families as well.
    Mrs. Davis. Thank you.
    Colonel Strobridge.
    Colonel Strobridge. Thank you.
    I am feeling a little bit of pressure here, because, as we 
go down the list, we have heard from the Guard and Reserve 
associations, the family associations, and logically they have 
a responsibility to talk about the priorities in their area. I 
am very sensitive that I am here as the co-chair of the 
Military Coalition, and we make a conscious effort to avoid 
trying to say we support this at the expense of that for our 
top one, two, or three issues.
    We do try to prioritize, in general, our top seven or eight 
kinds of things, and some of those have already been covered. 
Those would include end-strength increases; wounded warrior 
improvements, which encompass some of the things that you have 
heard. Avoiding the unfair TRICARE fee and hikes, obviously, 
has been a big issue for the last several years. Pay 
comparability is one. They talked about the Guard and Reserve 
issues; concurrent receipt, SBP/DIC offsets.
    That is the constellation of eight, I think, that we have 
unanimity among all the coalition associations as being the top 
priorities. As you said, we fully recognize you can't do 
everything on those, but we have had times when the 
subcommittee has been able to work five or six of those things, 
maybe not to do all of them, but to make some progress. We 
appreciate that. I think we have got a track record of trying 
to work with the subcommittee, recognizing when the time comes 
when decisions have to be made, we try to work with you to make 
sure that we hit the things that are most important.
    Mrs. Davis. Great.
    And, Ms. McCloud, I think you were clear on what your high 
priority would be. Would you like to expand?
    Ms. McCloud. Just once again, as you can see, there is a 
lot of yellow behind me today. And we are just so grateful to 
be at this table. It is huge. And on behalf of the many, many 
woman who couldn't be here today, thank you.
    It is simple: SBP/DIC offset, it needs to be eliminated. 
They are two different programs from two different agencies for 
two different reasons, and one should not have to give up one 
for the other.
    In the case of the active-duty deaths, I could tell you sob 
stories, both from my own family and hundreds of others, and I 
am not going to do that today. That is not what this is about. 
But suffice it to say that it is not right to add unjust 
financial burdens to families that are dealing with 
unimaginable grief and raising our children on our own every 
single day.
    Trane did his job; I will do mine. You ask any of the 
people that have served in the military, they didn't always 
like the orders they got, but they did them. And they carried 
them out, and they did them well. I certainly don't like the 
order my family got, but we will do it. But I shouldn't have to 
make financial sacrifices for a benefit that he earned.
    In the case of the retirees, one could even say it is more 
egregious. These people paid premiums. I read that, in 
instances when service members were retiring from the military, 
in instances they did not even know about the offset. So here 
they are, year after year after year, paying for premiums, 
going without, so that their spouse will be provided for, only 
to find out, ``No, sorry.''
    If I could paraphrase Senator Bill Nelson from Florida, who 
is the author of the companion legislation in the Senate, he 
was a former insurance commissioner for the State of Florida. 
And he stated that he knew of no other purchase annuity program 
that can then turn around and refuse to pay you the benefits 
that you purchased on the grounds that you are getting the 
benefits from somewhere else. If you can't do it in the private 
sector, the Federal Government certainly shouldn't be able to 
do it.
    Mrs. Davis. Thank you.
    My five minutes is up. I think we are going to go to the 
other members, and we will come back and we will talk about the 
issues that you are here with, as well. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman.
    And, Colonel Duffy, thank you for your presentation. As a 
National Guard veteran, the father of three persons serving in 
the National Guard, I appreciate you bringing up the issue of 
the home of record and the difficulties that can be in 
providing services. I look forward to working with you on that.
    Colonel Duffy. Yes, sir.
    Mr. Wilson. Additionally, I am very grateful for the 
presentation and representation this afternoon by Maggie 
McCloud of the Gold Star Wives. She certainly has come across 
with some very positive information. And I am grateful to be 
working with the Gold Star Wives in support of enactment of 
H.R. 775, which would eliminate the SBP/DIC offset.
    I have two brief questions, Maggie, that I would like for 
you to review. One is, under the offset requirement, on average 
how much is the SBP payment? How much does the survivor lose?
    Ms. McCloud. As you know, SBP is based upon rank and time 
of service, so it is different for the individual survivors. 
But, on average, these people are losing about $1,000 per 
month, less taxes.
    Mr. Wilson. And that is amazing. And people need to know 
that.
    Ms. McCloud. And I would say that $1,000 a month might not 
sound like a lot of money here in Washington, D.C., but we have 
elderly widows on food stamps. I have participated in message 
boards where we have tried to assist members finding out about 
food pantries and things like that. A thousand dollars a month 
is going to go a long way to putting food on the table and 
keeping a roof over these people's heads.
    Mr. Wilson. That is so important for a family. So I 
appreciate you bringing and explaining that.
    Additionally, given the 10-year cost of repealing the 
offset, why, in your view, should Congress authorize the full 
repeal of the offset instead of continuing the current survivor 
indemnity allowance?
    Ms. McCloud. Regarding the Special Survivor Indemnity 
Allowance, it is hardly an answer to this problem. As you know, 
Congress passed the special allowance, and it amounts to 50 
taxable dollars per month, increasing over the next several 
years until it is $100 a month, and then it disappears.
    I don't think there is any recipient of the special 
allowance that thinks getting $50 a month, which in today's 
dollars won't even fill your tank with gas, is an adequate 
answer to removing the offset that is costing these people 
$1,000 a month for a benefit that their husbands either earned 
through premiums or paid for with their life.
    It is most definitely about fairness and honoring 
commitments to our service members and their families.
    Mr. Wilson. Well, thank you again for bringing that to our 
attention.
    For the Military Coalition, thank you for being here today. 
A question that I have is in regard to raising the TRICARE 
fees. Each of your written statements addresses the possibility 
of raising TRICARE fees for non-Medicare-eligible retirees, 
which I personally oppose. Given the difficult economic times 
the country is facing, would you rather that we not allow the 
Department of Defense to raise TRICARE fees in 2010?
    Colonel Strobridge. I think we can say with unanimity that 
that would be our preference.
    Mr. Wilson. And that is the coalition view.
    Colonel Strobridge. Yes, sir.
    Mr. Wilson. Additionally, a second question in regard to 
health care initiatives. I was pleased of your support for 
providing health care for the gray-areas identified retirees of 
H.R. 270, a bill by Mr. Latta of Ohio.
    I also want to bring to your attention, Congressman John 
Kline and myself have introduced H.R. 972. This would let a 
Reserve retiree, just as any other retiree who is under age 60 
and receiving retirement pay, participate in the full range of 
TRICARE programs, including TRICARE Prime.
    What are your thoughts as to this benefit?
    Ms. Moakler. Excuse me, sir. Would those be under-65 
Reserve retirees?
    Mr. Wilson. It is early retirees.
    Sergeant Cline. We will take it, Congressman. Where do we 
sign up?
    Mr. Wilson. I urge you to look up the bill, for all of you. 
Something that I know that Congresswoman Davis and I have 
discussed is to have your members contact Members of Congress 
and this subcommittee. And individual information, as was 
presented by Ms. McCloud, is so helpful for us to know the 
real-world impact of the legislation that we pass, the 
regulations that are out there.
    The home of record problem, Colonel, that you pointed out, 
please bring that to our attention so we can act on it.
    Thank you very much.
    Mrs. Davis. Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    Joe, are we all on the same number here? The 10-year cost 
for--I have two women named Maggie that work for me, so I like 
to use the word ``Maggie''--but that the 10-year score is $6.9 
billion? Is that the number that we are all working from?
    Colonel Strobridge. The number we saw, I think, sir, was 
$7.1 billion. That is the mandatory spending side.
    Dr. Snyder. Okay.
    On other topic, a couple of days ago Secretary Garrett was 
talking about the interstate compact on military children 
education. Ms. Moakler, you talked about it in your statement. 
I am from the State of Arkansas, and the bill in Arkansas is 
being considered. I think it passed the House and has gone to 
Senate committee today. But they decided to do it without 
actually joining the compact. I think they are doing about 
everything that is in the language of the bill but chose not to 
actually join the compact. And I haven't talked to them about 
why they are deciding to go that way. They withdrew one bill 
that did the compact and passed this other one.
    Do you have any sense--I would think that, substantively, 
that wouldn't make much difference to the kids if they are 
passing all the provisions of the bill. Do you have a sense 
for--I suppose it is more of a legal argument than anything.
    Ms. Moakler. I think that the advantage of joining the 
compact is then being part of the commission that helps evolve 
how these changes are going to be implemented. And just as no 
man is an island, no state is an island in this compatibility 
between the states, because you want a state to be a good 
sending state and a good receiving state. And so, joining the 
compact and working with the commission allows everyone to 
share best practices on how they are enabling their students as 
they go on to other schools and how they are welcoming students 
that come either from another state or from the Department of 
Defense system.
    Dr. Snyder. I am just going to have to learn more about why 
they chose that route. My guess is it is going to work out 
fine. They have good intent about it, but I wasn't sure.
    In August of last year, at the Little Rock Air Force Base, 
the base arranged for me, and a staff member, to meet with the 
parents of autistic children. And I think it was a very 
worthwhile discussion for a lot of reasons, but the one thing 
that struck me the most was it was the first time they had met 
each other. I mean, this is not like Fort Hood or something. 
This is a fairly small base.
    And it brought home to me, it seems like there ought to be 
something we can do systemwide to help the parents of special-
needs kid to have, not a forum necessarily, but an opportunity 
to formally get together because of the coming and going. You 
know, you make friends, you figure out how the systems works in 
a town, and then you are transferred to someplace else. What 
the base commander did on the base, I think, is he, at some 
point, had kind of a town meeting for parents with special-
needs kids, and I am told that it went well.
    Are you aware of anything formal that is being done 
systemwide?
    Ms. Moakler. I don't know of anything formal being done 
systemwide, because it varies from service to service.
    Dr. Snyder. And base to base.
    Ms. Moakler. Of course, each service has their exceptional 
family member person on the installation who coordinates 
services and makes parents aware of services. I know for a 
fact--I have attended meetings at Fort Belvoir, where they 
regularly have briefings for the parents of autistic children.
    So it could vary from service to service, installation to 
installation. But it might not be a bad thing to have some kind 
of consistency in the program.
    I know the Marine Corps is expanding the role of their 
exceptional family member program coordinator to assist in 
continuity of care. It is a little bit outside the original 
role of the exceptional family member person, which was to help 
the families with assignments. But they realized that these 
families need some kind of guide as they go from installation 
to installation to help them on their way.
    Also, several of the TRICARE contractors have case managers 
for these exceptional family member families. But the kind of 
case management they provide is not consistent across all three 
of the contractors.
    Dr. Snyder. My time is about up, Madam Chair.
    But, Ms. McCloud, you referred to the people in yellow here 
today. Would you like to introduce each one of them?
    Ms. McCloud. I sure would. Thank you very much.
    Dr. Snyder. Of course, they have to stand up when you call 
their name.
    Ms. McCloud. If I could do the ladies that traveled from 
Kentucky first, because they traveled the furthest.
    We have two active-duty deaths--ladies, if you could stand 
up--their husbands were active-duty deaths. They traveled all 
the way from Kentucky to be here today on their own dime.
    And I couldn't be more happy. If we had more time, I 
guarantee you, sir, I could have had the hall filled outside 
with women wanting to be here today.
    Ms. Stanley. My name is Christy Stanley. And my husband was 
Chief Warrant Officer 3rd Class (CW3) David Stanley, and he 
died September 11, 2007.
    Ms. Dostie. I am Stephanie Dostie. My husband was Sergeant 
First Class John Dostie. He died December 30, 2005.
    Ms. McCloud. Kristen and Kimberly, are other active-duty 
deaths I know that are here.
    Ms. Hazelgrove. I am Kimberly Hazelgrove. My husband was 
Chief Warrant Officer 2nd Class (CW2) Brian Hazelgrove, killed 
in Iraq in January of 2004. We had four children. They are 
currently 5, 8, 15, and 16.
    Ms. Fenty. My name is Kristen Fenty. I was married to 
Lieutenant Colonel Joseph Fenty, who was killed May 5, 2006. We 
had been married 19 years without a single pregnancy, and by 
some miracle, I was pregnant when he was deployed, and I have 
the gift of a beautiful baby girl. He never got to meet her. He 
served 21 days short of 20 years. He was looking forward to 
retirement to share with his daughter. I know that he would be 
happy to know that his daughter will be well cared for.
    Ms. McCloud. Sandy, Martha, and Rose are also active-duty 
deaths, although not of the current conflict.
    Ladies, if you could stand up.
    And Pat, as well.
    Ms. Sharp. I am Patricia Sharp. My husband was Brigadier 
General Richard A. Sharp. He died on active duty at Hunter Army 
Air Field in Savannah, Georgia, in 1983.
    Ms. Douthit. My name is Martha Douthit. My husband, 
Lieutenant Colonel David A. Douthit, was killed in the Persian 
Gulf War, May 3, 1991.
    Ms. Drew. I am Sandra Drew. My husband was Colonel Nelson 
Drew. He was killed in Bosnia, August 19, 1995, negotiating the 
ceasefire.
    Ms. McCloud. Rose, our president emeritus.
    Ms. Lee. My name is Rose Lee. My husband was named Chew-Mon 
Lee, a colonel in the United States Army. He died on active 
duty in 1972. That was after the beginning of SBP, before the 
law passed. By the way, he also received the Distinguished 
Service Cross for service in Korea.
    Ms. McCloud. And Edie Smith.
    Ms. Smith. Edie Smith. My husband was a Marine Lieutenant 
Colonel who died in 1988 after 12 years of a very disabling 
illness. And this committee worked really well with me. I would 
like to thank John Chapla and Mike Higgins, who were here from 
the beginning to improve our medical care for the disabled. So 
we appreciate all your work.
    Ms. McCloud. Did I get everybody? Two more. I am sorry, 
ladies.
    Ms. Harvey. I am Carolyn Harvey. My husband is Bernard 
Harvey, Colonel, U.S. Air Force. He died in January 2004.
    Ms. Rember. I am Sara Rember. My husband, Colonel Bruce 
Rember, died of a service-connected disease.
    Ms. McCloud. If I could just say one more comment, Dr. 
Snyder, in my family we count the blessings and not the losses. 
And we are very blessed.
    I would give anything not to be here today. I would give 
anything never to have heard of this matter and to be still 
working on key volunteer issues and family readiness issues on 
K-Bay (Kaneohe Bay) in Hawaii where I was supposed to be. But I 
am here, and I am here because Trane died serving his country. 
He did his job. I had the opportunity to come here today, and I 
took it. And I am so grateful for the attention you have given 
us.
    I am here speaking for 54,000 widows who are affected by 
this problem. Trane took care of his Marines. My husband made 
sure that his men always had what they needed to get the job 
done. I am trying to follow his lead, and I am trying to make a 
difference, as are these ladies.
    This issue affects a relatively small number of people, but 
they have already suffered an unimaginable loss. I beseech you, 
we need to pass this legislation. It means so very much.
    Thank you.
    Dr. Snyder. Thank you.
    Mrs. Davis. Thank you.
    And thank you to all of you for traveling here, for being 
here, for your sacrifices. We appreciate it very much. You put 
a very personal face on all of this for us, and it means a 
great deal. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Yes, thank you very much. It reminds us again 
that service in war is a life-changing event for your husbands 
and your loved ones who you so tragically lost, but so bravely, 
but also for you and your families.
    My question really is: What kind of services do you have 
immediately in the aftermath of learning that you have lost a 
loved one? I am curious just what the various services provide, 
both in the near term, medium term, and long term, quite beyond 
the issues we are talking about of compensation or support as 
you get further away, but all the other kinds of services, 
including mental health services or emotional support, if 
needed.
    Ms. McCloud. Thank you again for your concern.
    I might defer to some of my colleagues, if that is 
permissible. I don't know.
    Honestly, in the immediate aftermath, your head is 
swimming. I mean, it has been--in my case, my husband was 
killed a little over two years ago. Some days it feels like it 
was just yesterday, and some days it feels like it was an 
eternity.
    I work. You know, I am both mother and father to my 
children. I hold down a job. I am the disciplinarian. I am the 
tutor. I do all the things that two loving parents are supposed 
to be doing. But you go forward.
    As far as services that are available, I am probably not 
the best person to speak to that, and I apologize. All I can 
say is the Marines did an incredible job taking care of my 
family. I have heard of people that haven't had the best of 
situations afterwards. I am grateful, in my case, the Marines 
did a phenomenal job.
    Major Eric Kelly was my Casualty Assistance Control Officer 
(CACO). I would love his name on the record. He deserves an 
award for everything he did for my family and holding my hand 
through some terrible, terrible times.
    I do know there are services that are available, but 
another issue, too, is you move away. You move away from your 
base. My husband and I were stationed in Hawaii. We were 
stationed in Kaneohe Bay, a great place to visit, not a great 
place to be if you lose your husband and you don't have a 
family member, except for a really, really, really long plane 
ride away. And that is the case with a lot of these families. 
Where you are when it happens is not where you stay. I had a 
home and a job to come back to in the D.C. area. I am grateful. 
But as far as support of my husband's command, that was a 
different story, because I chose to leave Hawaii.
    Ms. Tsongas. Are there things you wished you had? Even the 
assistance in moving or returning back.
    If others would like to comment?
    Ms. McCloud. Edie is saying that TRICARE does not provide 
grief counseling for our children. I know I have private 
insurance. I am grateful to have it. And I do take my children, 
specifically one of my children, to see a counselor every week. 
He needs it, and I am grateful that I am doing it. But I am not 
doing it through that; I am doing it through my private 
insurance.
    Ms. Fenty. Could I address that question?
    Unfortunately, there is inconsistency in the services, not 
just by the service that the soldier or military member serves 
in, but also place to place.
    The Army recently established the Survivor Outreach 
Services program to provide for high-quality benefits 
administration and to cater to the needs of Army families. I 
don't believe there is anything like that across the services. 
There is also long-term family case management for Army 
families, and I think there is something similar in the 
Marines.
    So, the lesson to learn here, if it is not uniform, it is 
not consistent, then it needs to be, where there are best 
practices that needs to be shared.
    As for quick benefits administration, I heard this woman 
say today that when her husband passed away from a disability, 
a service-related disability, it took five years for her to 
receive it. So there is work to be done in expediting that.
    As far as mental health services, it is not happening.
    Mrs. Davis. Thank you. We appreciate that. And we are 
certainly focusing on mental health care, as well.
    Ms. Moakler, I didn't know whether you wanted to respond 
quickly.
    Ms. Moakler. I was just going to give an overview.
    The families of the survivors of active-duty deaths are 
allowed to remain in housing or receive a housing allowance for 
one year after the death of the service member. The children 
receive an active-duty health care benefit until they reach age 
21, or 23 when they graduate from college.
    Ms. McCloud. That doesn't include dental. And we would love 
for it to be able to have the dental program expanded so that 
they can get the same dental care through 21 or 23, as they do 
for the health care, which we are most grateful for.
    Ms. Moakler. The surviving spouse receives an active-duty 
TRICARE benefit for three years after the death of the service 
member and, after that, receives the retiree TRICARE health 
care benefit.
    There are education benefits for the surviving spouses 
through the VA, the GI home loan.
    And the VA also offers bereavement counseling through the 
vet centers. That can be spotty. It is not a consistent benefit 
everywhere, especially if you are not located near a vet 
center. And also, sometimes bringing your child into a vet 
center that is used to catering to older veterans is not the 
best care scenario either.
    Ms. Tsongas. So if there was anything you could ask for?
    Ms. Moakler. I certainly would like to see a change in a 
TRICARE co-designation to include grief counseling for 
survivors as a TRICARE benefit.
    Ms. Tsongas. Thank you all.
    Colonel Strobridge. I do want to give the subcommittee 
credit, because the issue of inconsistency of support between 
the services has been an issue that I know we have talked with 
the staff and I know the subcommittee has tried to address in 
the past. As always, things are never perfect, but I know the 
subcommittee has tried to do that and tried to make some 
progress, and we do appreciate that.
    Ms. McCloud. If I could add one other comment, because the 
subject of TRICARE fees came up. In the case of the widows that 
I am talking about today, we have 33,000 widows who receive no 
SBP whatsoever. Their SBP is offset entirely by the DIC. So 
they do not even have that payment to pay for the TRICARE fees 
that are involved.
    Mrs. Davis. Thank you.
    Thank you, Ms. Tsongas.
    I want to return to one of the issues that we always talk 
about and, yet, I think that it wasn't mentioned specifically. 
And I am making an assumption that it is important--I think in 
your testimony earlier it was, but although not necessarily 
your three highest priorities. And that is the one of pay raise 
and trying to make certain that the gap between the military 
and the private-sector pay does not go beyond the 2.9 percent.
    We know that we may be facing some budget challenges, and I 
would like you just to weigh in, if you will, on whether 
continued pay raises above the ECI is a must-have among the 
military personnel programs. Are you making an assumption that 
that is going to be there, that that is critically important? 
Or, when it comes to some of the other benefits that we talked 
about, it may not be as critical as other benefits?
    Colonel Strobridge. If I might be able to address that, 
Madam Chair.
    One of the things that we have tried to sustain over 30 
years, perhaps maybe the single most consistent issue, has been 
that pay comparability is a fundamental underpinning of the 
All-Volunteer Force. The problem that we get into is, in more 
years than not, even though the subcommittee in the last decade 
has made a consistent effort to restore pay comparability, we 
got into real problems every time we said, ``Gee, we can't 
afford to sustain that.''
    And right now we have a track record where the subcommittee 
has worked hard not to close it--this has been one of those 
issues where we, you know, try to eat away every year--but we 
are still short of the comparability standard. And I think we 
are very reluctant to say comparability doesn't matter.
    One of the things that is always talked about is, ``Gee, in 
the interest of shared financial sacrifice.'' I think that 
sometimes we say it a lot, but we forget that military people 
have been asked to bear 100 percent of the national wartime 
sacrifice for almost the last decade. And we are a little bit 
reluctant to give up on the fundamental principle, as was 
referred to before, when we have just spent trillions of 
dollars. It seems like kind of quibbling sometimes over the 
last half a percent of one pay raise.
    Mrs. Davis. All right. Thank you.
    Colonel Strobridge. I realize it is not that easy for the 
subcommittee to deal with. But when you ask the question, we 
have to give the answer.
    Mrs. Davis. Yeah, no, I appreciate that.
    Anybody else wanted to weigh in on that particular issue?
    Colonel Duffy. Just second his remarks.
    Mrs. Davis. We will make an assumption that that is 
critically important.
    The other one that we are very aware of is end strength and 
the extent to which end strength contributes to--the 
operational requirements and that contribute to the welfare of 
service members and families. Obviously, that means lower 
deployments and more dwell time.
    Where, then, in this calculation as well, does the issue of 
end strength lie? Are we placing it in a high priority compared 
to other personnel initiatives? And where does it lie vis-a-vis 
increases in health care fees, for example?
    Colonel Strobridge. I think that is where we get into a 
little bit of a problem trying to say, look, we want this one 
at the expense of that other one.
    I think we would all agree that end strength is a huge 
priority. I think we are all very, very concerned, and we have 
talked with the subcommittee staff. You know, the rubber band 
is stretched so far. We all thought it was going to snap years 
ago. We are amazed that it hasn't snapped yet. Those of us who 
have been saying it is going to snap--you know, we have been 
down this road before. You just can't keep doing this to folks.
    And as Kathy, I think, said in her verbal, we get very 
concerned when we start talking about backtracking on planned 
increases, because that is the only, frankly, the only way of 
providing any kind of short-term relief. And even the planned 
end-strength increases we know are not going to solve the 
problem.
    So, to us, we have to send any message we can to the folks 
who are currently paying such a penalty that we are doing our 
best to provide that relief.
    Mrs. Davis. Thank you. And what we are all aware of is the 
discussions that the supplemental is not necessarily going to 
be there to adjust for end-strength increases. And so that is 
an issue that we are all going to be facing, in terms of making 
certain that the budget is more obvious, and in terms of what 
we are doing and how we feel that we are stating our 
priorities, quite clearly.
    Colonel Strobridge. Madam Chair, we realize that nobody is 
more sensitive to this issue than the people on this 
subcommittee. We do get concerned that some others in 
government, not out of any intent but just because people have 
been responding for so long, and we all have our jaws agape 
that we already haven't had some massive retention problem--we 
try to put ourselves in their shoes, I know I do, and I can 
tell you I would have been gone a long time ago.
    And I don't feel it is unpatriotic to say that. I think 
there is a limit to what you can expect of people. And I think 
sometimes that, not for any intent, we come to take their 
sacrifice for granted. And I think we do that at our peril.
    Mrs. Davis. Thank you. I appreciate those comments. I know 
everybody in the room does, as well.
    We will certainly turn to the resale issues. I am going to 
go to my colleagues, and if they don't ask the questions, then 
we will come back and we will discuss a few of the issues that 
we have before us.
    Mr. Wilson.
    Mr. Wilson. Again, a statement I want to make. I want to 
thank all of you for being here. I want to thank you for your 
presentations.
    You also represent organizations that are very important to 
those of us who serve in Congress. I want to urge you to write 
letters--they can be handwritten letters, they can be e-mails--
of how particular legislation, either that is pending or needs 
to be adjusted or regulations that need to be improved. I think 
it would really be helpful if we had individual responses to 
the members of this subcommittee, to the members of the full 
committee, to your resident Members and U.S. Senators from your 
home states.
    And that would be a comment that I would make based on what 
I have heard today. And it is just so helpful, not to invade 
anybody's privacy, but it just would be so helpful to know 
specifically what we are dealing with, how it affects families 
and individual soldiers. And that would be my urge at this 
time.
    Mrs. Davis. Thank you.
    We are alone. So let me turn to the increase in tobacco 
products, briefly. We know that there has been some discussion 
at the suggestion of the DOD medical authorities that we 
terminate the five percent discounted price in favor of price 
parity with local civilian retailers.
    A DOD study concluded that, notwithstanding a reduction in 
sales, the price increase would result in an increase of $3.3 
million in gross profits within the military resale community, 
an increase of $1 million in the exchange dividend payment to 
MWR programs.
    So, from your perspective then, what would the vendors and 
brokers who work in military resale, how would they respond to 
an increase in tobacco prices? And what do you think would be 
their perspective regarding the potential impact on sales and 
revenues?
    Then I will turn to the military community, as well, in 
terms of, how do you think people are going to respond to that?
    Mr. Becker. Madam Chairwoman, you mentioned some math that 
I wasn't familiar with, in terms of the increased sales and the 
associated contribution. I would question the sensitivity, the 
price sensitivity of the demand for the product, given that 
scenario. I assume that math was done with the assumption that 
consumption would be maintained at an existing level. My 
experience questions that assumption.
    I think the benefit of the efforts that have been extended 
by Health Affairs and by the exchanges working together to 
properly merchandise the product, to separate the product from 
the consumer flow in the store and all, are admirable efforts.
    I am dubious as to the course that the exchanges would be 
forced to be placed on if they were to introduce that type of 
force to pricing in any product category. Because, much as I 
would have noted had I gotten to my three top priorities, your 
oversight has done an extraordinary job in leveraging the value 
of the infrastructure that has been built in the resale system 
itself. And compromising the tenets on which it rests I think 
are very risky and amount to more than the simple math.
    Mrs. Davis. Thank you.
    Did you want to comment as well?
    Ms. Brackett. Just briefly. Echoing Mr. Becker's comments, 
what I would just really like to underscore, the exchanges are 
to be complemented for their aggressive education program. And 
we feel that that is an important area to continue to focus on, 
versus the pricing parity.
    Mrs. Davis. And to the advocacy groups, do you believe or 
have you heard any reaction from military patrons that would 
suggest that they see this really as a loss of benefits if the 
price were increased to parity with the civilian sector?
    Ms. Moakler. I have to agree with the argument that Mr. 
Becker raised about having noncompetitive pricing on specific 
items. I think you are opening the door if we are going to have 
that with--and I may be making it too simplistic. We are doing 
it with cigarettes today. Are we doing it with gallons of milk 
tomorrow?
    I think that the proper emphasis on tobacco products--
having been a lifelong commissary patron, I have seen the shelf 
space decrease from an entire aisle to a very closed area with 
limited access for folks who want to buy their tobacco 
products. So I think that they are placing the right emphasis 
on health, but I don't believe we can open that door to allow 
noncompetitive pricing on selective items.
    Sergeant Cline. On the Guard and Reserve side of the house 
where commissaries are not readily available to our members, 
those who do use the commissary and the exchange system, it is 
a very valuable tool for them, especially when families are 
deployed and they make that monthly trip to save a few dollars 
because their monies have been decreased because of their 
husband's or their spouse's deployment.
    So it is very valuable. And, therefore, I would say the 
commissaries need to keep the prices down. We need to stay 
below Wal-Mart.
    Colonel Duffy. We have heard mention of H.R. 270, 
Representative Latta's bill to make TRICARE available to our 
gray-area retirees by purchasing at government cost. Well, one 
benefit our gray-area retirees do have is the commissary 
benefit. And that is greatly, greatly appreciated. And it 
really draws a lot of our retired members back to the military 
installations, which is a fine thing.
    Mrs. Davis. Thank you.
    Another issue that we were hearing a little bit is opening 
up the commissaries and exchanges to disabled veterans. And we 
know that there have been a number of bills introduced. I think 
that there is sometimes a misunderstanding. There are a number 
of veterans who do access the commissaries, but this would be 
to open it up to a greater extent.
    And we have asked that question in the past. I don't know 
if anybody wants to weigh in on that. We certainly hear 
different messages coming from different advocacy groups, which 
one would expect. I wonder if there is something you would like 
to add to that conversation.
    Colonel Strobridge. Madam Chair, the coalition has taken 
the position that we don't support that. We think it is 
important to maintain the distinction between DOD benefits and 
VA benefits. And DOD benefits are for those who are currently 
serving, those who are retired. Whereas, VA benefits, those 
retired and currently serving may qualify for the VA, or at 
least the retired ones, but the two populations don't overlap.
    We get very concerned about--I think a lot of people, a lot 
of Americans, and sometimes some people in Congress or in the 
Administration don't seem to understand the difference between 
the two, and they think a veteran is a veteran.
    To us, we would like to be able to say that if you serve a 
career, you have a package of DOD benefits that are provided by 
DOD as an employer, of which the commissary and exchange are 
one. If you separate from the service and then go on and work a 
second career and subsequently acquire a disability, the VA 
provides for that disability. To us, that doesn't reconnect you 
to qualify for DOD employer-provided benefit.
    And we think that is an important distinction. And we would 
like to maintain that distinction because there are people who 
would like to say, for example, for health care, once you 
retire, let's just turn you over to the VA. We feel very 
strongly DOD has an employer's responsibility to its career 
people to provide the TRICARE system. And the same argument 
applies to commissary and exchange and other DOD benefits, in 
our view.
    Mrs. Davis. Do you want to comment?
    Ms. Brackett. I would, please.
    As far as expanding the benefit for veterans with 30 
percent disability, the arguments we hear is that it will 
overcrowd the stores and increase costs. Not according to the 
resale commanders, who, in an unofficial poll, stated it would 
have minimum impact.
    In addition, in these tough economic times, doesn't it make 
sense to give a temporary lifeline to our military as they do 
transition from active service to new careers? We feel it is 
the right thing to do.
    Mrs. Davis. Thank you. I appreciate both of those 
perspectives.
    And when you think about the fact that we are talking about 
people who have disabilities greater than 30 percent, that 
would be entitled to the commissary, it seems like a 
relatively, perhaps, small fraction of a greater population. 
But I think, in reality, if you go back and you look at that, 
the numbers are probably fairly large. And it would depend on 
the community, obviously, in which that occurs.
    But I know that it is an issue out there. And I think for 
some people it seems that it is an opportunity to bring further 
revenue to MWR programs and to allow people to have that 
opportunity. And yet we know that it is a very sacred, really, 
benefit that people receive. And once they have been separated 
for long periods of time, I understand that perspective.
    Colonel Strobridge. Yes, ma'am. I think sometimes, again, 
people, they think of this as a wounded warrior issue. And they 
think of the people who are being, you know, put out with 
significant disabilities. Well, in fact, if you leave the 
service with a 30 percent or greater disability, you are a 
retiree and you are eligible. So we are mainly talking about 
people who didn't have that disability rating at the time they 
left and acquired it later. And, to us, that is the 
distinction.
    And, as a matter of fact, we haven't had the issue 
recently, but for those of us who have been working these 
issues for 30 years or so, periodically we have serious attacks 
on the commissary subsidy, and we start getting a little 
concerned when somebody says, ``Gee, you are spending a billion 
dollars on somebody who spent a whole career doing something 
else and acquired a 30 percent disability at age 70, and we are 
spending commissary dollars to give them access.'' We would 
rather not have to worry about adding another argument to 
defend the commissary subsidy.
    Ms. Moakler. In addition, Madam Chairperson, those folks 
would not have identification (ID) cards. And in these times of 
limited access to military installations, there would have to 
be some mechanism, which would cost money, either by time or 
issuing some kind of ID, for those folks to access the 
installation.
    Mrs. Davis. Some security issues that would be at play 
there.
    One of the other military resale issues is around jewelry 
and furniture and whether or not we basically protect the 
interests of those businesses that are out in the community or 
enable the military resale associations to sell more of it.
    Now, I think that those issues, have they been settled to 
an extent that people are comfortable with that?
    Mr. Becker. I will address that quickly, if I may. And this 
oversight has done a tremendous job in the recent past in 
ensuring that the infrastructure that already exists on 
military bases is leveraged more beneficially by expanding some 
of the categories, particularly some price restrictions.
    I would call your attention to the fact that originally 
some of these restrictions were in place to assist small 
businesses, many of whom are really nonexistent today. In fact, 
a lot of them were electronics retailers and such.
    The fact remains that the bases, in some instances, don't 
have the physical space to sell things like furniture and are 
still precluded from expanding their physical plant in order to 
be able to sell furniture.
    As we have seen in the contemporary environment, it is 
creditors who have largely laid behind the problems for 
consumers. And one of our arguments have long held that if the 
exchanges were given greater scope of authority to sell 
furniture, military patrons would at once enjoy not only the 
privilege to buy the product but, simultaneously, access to 
superior terms on those purchases.
    We would continue to seek support from this committee to 
relieve the restrictions on the exchanges from construction, so 
to improve the facilities to be able to sell furniture, in 
particular. There are a few other minor areas that we think 
would offer opportunity, but that, in particular, we would 
appreciate your consideration.
    Mrs. Davis. Thank you.
    In the course of discussing a number of the other issues 
that you have brought, the retiree programs, concurrent receipt 
continues to be a concern. Even though we have moved on that, I 
think that it still continues to come up. And I am just 
wondering where in the list of priorities you would place 
expansion of concurrent receipt today.
    Colonel Strobridge. I think that is another one, Madam 
Chair, where the subcommittee has made an effort to try to make 
some progress. You know, the reality is, whenever we make 
progress on something and we still got a long way to go, you 
always have glass-half-full people from the people who have 
been taken care of and glass completely empty for the people 
who haven't. And so it creates pressure on all of us.
    We believe that we agree with that. We have tried to work 
with the subcommittee to make incremental progress and try to 
identify various steps that we can take. We have worked with 
the subcommittee in the past to see, if you will let us know 
how much money you have, we will tell you who is the most 
important priority to try to take care of next.
    I think we have a consensus that one of the things, 
probably the single biggest issue, is to fix the glitch in the 
law that Congress already passed on combat-related special 
compensation. Through no fault of the committee's, there was a 
glitch in the law that doesn't deliver that compensation. So we 
have people who are 60, 70 percent combat disabled who do not 
receive the combat-related compensation. We thought we were 
working on getting a fix last year. Unfortunately, at the end-
of-the-year crunch we didn't get it through.
    But we have talked with the staff about it. I think there 
is a consensus both in the House and the Senate that this is 
the right thing to do. If you can only do one thing, we would 
say that is the thing to do.
    Mrs. Davis. All right, thank you.
    Mr. Wilson.
    Mr. Wilson. As we----
    Ms. McCloud. Oh----
    Mr. Wilson. Oh, no, I definitely want to hear from Maggie.
    Ms. McCloud. May I be so bold? If we are talking about 
concurrent receipt--and I am delighted that Congress has acted 
on this issue over the past several years. If we are speaking 
of fairness, Congress should have addressed the issue of SBP/
DIC offset for the widows when it implemented concurrent 
receipt for disabled retirees. We should have been included 
then, and we weren't. If our spouses were alive today, our 100 
percent disabled spouses, they would be receiving this benefit.
    On a personal note, I will say that when Trane was back on 
the Hill working for Congressman Wilson in 2003, he worked on 
concurrent receipt for disabled veterans. And I remember him 
coming home, I remember him coming home when Congress was 
working on this issue, and he was so excited, he was so proud 
that Congress was addressing this issue that was going to help 
so many disabled retirees. One of my fellow Gold Star Wives 
even remembers meeting with Trane on this issue.
    How ironic is it? What would he think today, I can't help 
but wonder, that the very legislation he was so excited about 
and so proud about left out his own family, left out his own 
wife, and left out the ladies sitting behind me? I just can't 
imagine what he would think.
    Mrs. Davis. Thank you. I appreciate that. I think we are 
also aware that you have worked on these issues, on a host of 
different issues, and that, of all the competing needs, I think 
that you said quite clearly that this is the one that you would 
hope would be addressed.
    Mr. Wilson. And I would like to thank the chairwoman for 
having this hearing this afternoon. It really has been very 
helpful to me. I know it will be helpful to our colleagues here 
in Congress.
    It is certainly a big day to have the Gold Star Wives 
recognized. And all of you who are here, I was sitting here 
thinking you bring real-world experience, real-world knowledge, 
but you also bring real-world credibility. I thank all of you 
for being here today.
    I want to thank the chairwoman for her putting this 
together.
    Mrs. Davis. Thank you all very much for being here. If 
there is anything that you failed to say that you would like to 
be sure that we are aware of, please do not hesitate to 
communicate that with us.
    Thank you all so much for being here.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 25, 2009

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 25, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 50055.001
    
    [GRAPHIC] [TIFF OMITTED] 50055.002
    
    [GRAPHIC] [TIFF OMITTED] 50055.003
    
    [GRAPHIC] [TIFF OMITTED] 50055.004
    
    [GRAPHIC] [TIFF OMITTED] 50055.005
    
    [GRAPHIC] [TIFF OMITTED] 50055.006
    
    [GRAPHIC] [TIFF OMITTED] 50055.007
    
    [GRAPHIC] [TIFF OMITTED] 50055.008
    
    [GRAPHIC] [TIFF OMITTED] 50055.009
    
    [GRAPHIC] [TIFF OMITTED] 50055.010
    
    [GRAPHIC] [TIFF OMITTED] 50055.011
    
    [GRAPHIC] [TIFF OMITTED] 50055.012
    
    [GRAPHIC] [TIFF OMITTED] 50055.013
    
    [GRAPHIC] [TIFF OMITTED] 50055.014
    
    [GRAPHIC] [TIFF OMITTED] 50055.015
    
    [GRAPHIC] [TIFF OMITTED] 50055.016
    
    [GRAPHIC] [TIFF OMITTED] 50055.017
    
    [GRAPHIC] [TIFF OMITTED] 50055.018
    
    [GRAPHIC] [TIFF OMITTED] 50055.019
    
    [GRAPHIC] [TIFF OMITTED] 50055.020
    
    [GRAPHIC] [TIFF OMITTED] 50055.021
    
    [GRAPHIC] [TIFF OMITTED] 50055.022
    
    [GRAPHIC] [TIFF OMITTED] 50055.023
    
    [GRAPHIC] [TIFF OMITTED] 50055.024
    
    [GRAPHIC] [TIFF OMITTED] 50055.025
    
    [GRAPHIC] [TIFF OMITTED] 50055.026
    
    [GRAPHIC] [TIFF OMITTED] 50055.027
    
    [GRAPHIC] [TIFF OMITTED] 50055.028
    
    [GRAPHIC] [TIFF OMITTED] 50055.029
    
    [GRAPHIC] [TIFF OMITTED] 50055.030
    
    [GRAPHIC] [TIFF OMITTED] 50055.031
    
    [GRAPHIC] [TIFF OMITTED] 50055.032
    
    [GRAPHIC] [TIFF OMITTED] 50055.033
    
    [GRAPHIC] [TIFF OMITTED] 50055.034
    
    [GRAPHIC] [TIFF OMITTED] 50055.035
    
    [GRAPHIC] [TIFF OMITTED] 50055.036
    
    [GRAPHIC] [TIFF OMITTED] 50055.037
    
    [GRAPHIC] [TIFF OMITTED] 50055.038
    
    [GRAPHIC] [TIFF OMITTED] 50055.039
    
    [GRAPHIC] [TIFF OMITTED] 50055.040
    
    [GRAPHIC] [TIFF OMITTED] 50055.041
    
    [GRAPHIC] [TIFF OMITTED] 50055.042
    
    [GRAPHIC] [TIFF OMITTED] 50055.043
    
    [GRAPHIC] [TIFF OMITTED] 50055.044
    
    [GRAPHIC] [TIFF OMITTED] 50055.045
    
    [GRAPHIC] [TIFF OMITTED] 50055.046
    
    [GRAPHIC] [TIFF OMITTED] 50055.047
    
    [GRAPHIC] [TIFF OMITTED] 50055.048
    
    [GRAPHIC] [TIFF OMITTED] 50055.049
    
    [GRAPHIC] [TIFF OMITTED] 50055.050
    
    [GRAPHIC] [TIFF OMITTED] 50055.051
    
    [GRAPHIC] [TIFF OMITTED] 50055.052
    
    [GRAPHIC] [TIFF OMITTED] 50055.053
    
    [GRAPHIC] [TIFF OMITTED] 50055.054
    
    [GRAPHIC] [TIFF OMITTED] 50055.055
    
    [GRAPHIC] [TIFF OMITTED] 50055.056
    
    [GRAPHIC] [TIFF OMITTED] 50055.057
    
    [GRAPHIC] [TIFF OMITTED] 50055.058
    
    [GRAPHIC] [TIFF OMITTED] 50055.059
    
    [GRAPHIC] [TIFF OMITTED] 50055.060
    
    [GRAPHIC] [TIFF OMITTED] 50055.061
    
    [GRAPHIC] [TIFF OMITTED] 50055.062
    
    [GRAPHIC] [TIFF OMITTED] 50055.063
    
    [GRAPHIC] [TIFF OMITTED] 50055.064
    
    [GRAPHIC] [TIFF OMITTED] 50055.065
    
    [GRAPHIC] [TIFF OMITTED] 50055.066
    
    [GRAPHIC] [TIFF OMITTED] 50055.067
    
    [GRAPHIC] [TIFF OMITTED] 50055.068
    
    [GRAPHIC] [TIFF OMITTED] 50055.069
    
    [GRAPHIC] [TIFF OMITTED] 50055.070
    
    [GRAPHIC] [TIFF OMITTED] 50055.071
    
    [GRAPHIC] [TIFF OMITTED] 50055.072
    
    [GRAPHIC] [TIFF OMITTED] 50055.073
    
    [GRAPHIC] [TIFF OMITTED] 50055.074
    
    [GRAPHIC] [TIFF OMITTED] 50055.075
    
    [GRAPHIC] [TIFF OMITTED] 50055.076
    
    [GRAPHIC] [TIFF OMITTED] 50055.077
    
    [GRAPHIC] [TIFF OMITTED] 50055.078
    
    [GRAPHIC] [TIFF OMITTED] 50055.079
    
    [GRAPHIC] [TIFF OMITTED] 50055.080
    
    [GRAPHIC] [TIFF OMITTED] 50055.081
    
    [GRAPHIC] [TIFF OMITTED] 50055.082
    
    [GRAPHIC] [TIFF OMITTED] 50055.083
    
    [GRAPHIC] [TIFF OMITTED] 50055.084
    
    [GRAPHIC] [TIFF OMITTED] 50055.085
    
    [GRAPHIC] [TIFF OMITTED] 50055.086
    
    [GRAPHIC] [TIFF OMITTED] 50055.087
    
    [GRAPHIC] [TIFF OMITTED] 50055.088
    
    [GRAPHIC] [TIFF OMITTED] 50055.089
    
    [GRAPHIC] [TIFF OMITTED] 50055.090
    
    [GRAPHIC] [TIFF OMITTED] 50055.091
    
    [GRAPHIC] [TIFF OMITTED] 50055.092
    
    [GRAPHIC] [TIFF OMITTED] 50055.093
    
    [GRAPHIC] [TIFF OMITTED] 50055.094
    
    [GRAPHIC] [TIFF OMITTED] 50055.095
    
    [GRAPHIC] [TIFF OMITTED] 50055.096
    
    [GRAPHIC] [TIFF OMITTED] 50055.097
    
    [GRAPHIC] [TIFF OMITTED] 50055.098
    
    [GRAPHIC] [TIFF OMITTED] 50055.099
    
    [GRAPHIC] [TIFF OMITTED] 50055.100
    
    [GRAPHIC] [TIFF OMITTED] 50055.101
    
    [GRAPHIC] [TIFF OMITTED] 50055.102
    
    [GRAPHIC] [TIFF OMITTED] 50055.204
    
    [GRAPHIC] [TIFF OMITTED] 50055.205
    
    [GRAPHIC] [TIFF OMITTED] 50055.206
    
    [GRAPHIC] [TIFF OMITTED] 50055.103
    
    [GRAPHIC] [TIFF OMITTED] 50055.104
    
    [GRAPHIC] [TIFF OMITTED] 50055.105
    
    [GRAPHIC] [TIFF OMITTED] 50055.106
    
    [GRAPHIC] [TIFF OMITTED] 50055.107
    
    [GRAPHIC] [TIFF OMITTED] 50055.108
    
    [GRAPHIC] [TIFF OMITTED] 50055.109
    
    [GRAPHIC] [TIFF OMITTED] 50055.110
    
    [GRAPHIC] [TIFF OMITTED] 50055.111
    
    [GRAPHIC] [TIFF OMITTED] 50055.112
    
    [GRAPHIC] [TIFF OMITTED] 50055.113
    
    [GRAPHIC] [TIFF OMITTED] 50055.114
    
    [GRAPHIC] [TIFF OMITTED] 50055.115
    
    [GRAPHIC] [TIFF OMITTED] 50055.116
    
    [GRAPHIC] [TIFF OMITTED] 50055.117
    
    [GRAPHIC] [TIFF OMITTED] 50055.118
    
    [GRAPHIC] [TIFF OMITTED] 50055.119
    
    [GRAPHIC] [TIFF OMITTED] 50055.120
    
    [GRAPHIC] [TIFF OMITTED] 50055.121
    
    [GRAPHIC] [TIFF OMITTED] 50055.122
    
    [GRAPHIC] [TIFF OMITTED] 50055.123
    
    [GRAPHIC] [TIFF OMITTED] 50055.124
    
    [GRAPHIC] [TIFF OMITTED] 50055.125
    
    [GRAPHIC] [TIFF OMITTED] 50055.126
    
    [GRAPHIC] [TIFF OMITTED] 50055.127
    
    [GRAPHIC] [TIFF OMITTED] 50055.128
    
    [GRAPHIC] [TIFF OMITTED] 50055.129
    
    [GRAPHIC] [TIFF OMITTED] 50055.130
    
    [GRAPHIC] [TIFF OMITTED] 50055.131
    
    [GRAPHIC] [TIFF OMITTED] 50055.132
    
    [GRAPHIC] [TIFF OMITTED] 50055.133
    
    [GRAPHIC] [TIFF OMITTED] 50055.134
    
    [GRAPHIC] [TIFF OMITTED] 50055.135
    
    [GRAPHIC] [TIFF OMITTED] 50055.136
    
    [GRAPHIC] [TIFF OMITTED] 50055.137
    
    [GRAPHIC] [TIFF OMITTED] 50055.138
    
    [GRAPHIC] [TIFF OMITTED] 50055.139
    
    [GRAPHIC] [TIFF OMITTED] 50055.140
    
    [GRAPHIC] [TIFF OMITTED] 50055.141
    
    [GRAPHIC] [TIFF OMITTED] 50055.142
    
    [GRAPHIC] [TIFF OMITTED] 50055.143
    
    [GRAPHIC] [TIFF OMITTED] 50055.144
    
    [GRAPHIC] [TIFF OMITTED] 50055.145
    
    [GRAPHIC] [TIFF OMITTED] 50055.146
    
    [GRAPHIC] [TIFF OMITTED] 50055.147
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 25, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 50055.153
    
    [GRAPHIC] [TIFF OMITTED] 50055.154
    
    [GRAPHIC] [TIFF OMITTED] 50055.155
    
    [GRAPHIC] [TIFF OMITTED] 50055.156
    
    [GRAPHIC] [TIFF OMITTED] 50055.157
    
    [GRAPHIC] [TIFF OMITTED] 50055.158
    
    [GRAPHIC] [TIFF OMITTED] 50055.159
    
    [GRAPHIC] [TIFF OMITTED] 50055.160
    
    [GRAPHIC] [TIFF OMITTED] 50055.161
    
    [GRAPHIC] [TIFF OMITTED] 50055.162
    
    [GRAPHIC] [TIFF OMITTED] 50055.163
    
    [GRAPHIC] [TIFF OMITTED] 50055.164
    
    [GRAPHIC] [TIFF OMITTED] 50055.165
    
    [GRAPHIC] [TIFF OMITTED] 50055.166
    
    [GRAPHIC] [TIFF OMITTED] 50055.167
    
    [GRAPHIC] [TIFF OMITTED] 50055.168
    
    [GRAPHIC] [TIFF OMITTED] 50055.169
    
    [GRAPHIC] [TIFF OMITTED] 50055.170
    
    [GRAPHIC] [TIFF OMITTED] 50055.171
    
    [GRAPHIC] [TIFF OMITTED] 50055.172
    
    [GRAPHIC] [TIFF OMITTED] 50055.173
    
    [GRAPHIC] [TIFF OMITTED] 50055.174
    
    [GRAPHIC] [TIFF OMITTED] 50055.175
    
    [GRAPHIC] [TIFF OMITTED] 50055.176
    
    [GRAPHIC] [TIFF OMITTED] 50055.177
    
    [GRAPHIC] [TIFF OMITTED] 50055.178
    
    [GRAPHIC] [TIFF OMITTED] 50055.179
    
    [GRAPHIC] [TIFF OMITTED] 50055.180
    
    [GRAPHIC] [TIFF OMITTED] 50055.181
    
    [GRAPHIC] [TIFF OMITTED] 50055.182
    
    [GRAPHIC] [TIFF OMITTED] 50055.183
    
    [GRAPHIC] [TIFF OMITTED] 50055.184
    
    [GRAPHIC] [TIFF OMITTED] 50055.185
    
    [GRAPHIC] [TIFF OMITTED] 50055.186
    
    [GRAPHIC] [TIFF OMITTED] 50055.187
    
    [GRAPHIC] [TIFF OMITTED] 50055.188
    
    [GRAPHIC] [TIFF OMITTED] 50055.189
    
    [GRAPHIC] [TIFF OMITTED] 50055.190
    
    [GRAPHIC] [TIFF OMITTED] 50055.191
    
    [GRAPHIC] [TIFF OMITTED] 50055.192
    
    [GRAPHIC] [TIFF OMITTED] 50055.193
    
    [GRAPHIC] [TIFF OMITTED] 50055.194
    
    [GRAPHIC] [TIFF OMITTED] 50055.195
    
    [GRAPHIC] [TIFF OMITTED] 50055.196
    
    [GRAPHIC] [TIFF OMITTED] 50055.197
    
    [GRAPHIC] [TIFF OMITTED] 50055.198
    
    [GRAPHIC] [TIFF OMITTED] 50055.199
    
    [GRAPHIC] [TIFF OMITTED] 50055.200
    
    [GRAPHIC] [TIFF OMITTED] 50055.201
    
    [GRAPHIC] [TIFF OMITTED] 50055.202
    
    [GRAPHIC] [TIFF OMITTED] 50055.203
    
    [GRAPHIC] [TIFF OMITTED] 50055.148
    
    [GRAPHIC] [TIFF OMITTED] 50055.149
    
    [GRAPHIC] [TIFF OMITTED] 50055.150
    
    [GRAPHIC] [TIFF OMITTED] 50055.151
    
    [GRAPHIC] [TIFF OMITTED] 50055.152
    
                                  <all>

</pre></body></html>
